VISA
Credit Card Agreement
BY USING YOUR VISA® CARD YOU AGREE TO ALL THE TERMS IN THIS AGREEMENT. THIS AGREEMENT
INCLUDES THE FEDERAL TRUTH-IN-LENDING DISCLOSURE STATEMENT AND SPECIAL INSTRUCTIONS
REGARDING THE USE OF YOUR CARD GIVEN TO YOU SEPARATELY. PLEASE BE SURE TO READ THIS
AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF THERE ARE ANY SECTIONS YOU DO NOT
UNDERSTAND.
1. DEFINITION OF TERMS.
In this Agreement:
•
•

•

•

The words, “we,” “us,” ”our,” and “Credit Union” refer to the Marriott Employees’ Federal Credit
Union or any of its assigns.
The words “you,” ”your,” “yours,” “cardholder,” and “borrower” refer to each person jointly and
individually who applies for or otherwise is responsible for the VISA Platinum Preferred, VISA
Platinum Preferred with Rewards, VISA Student Advantage, or VISA Secured Credit Card.
“VISA” or ”card” refers to the Marriott Employees’ Federal Credit Union VISA Platinum Preferred,
VISA Platinum Preferred with Rewards, VISA Student Advantage, or VISA Secured Credit Card
issued to you under this Agreement and any duplicates and renewals issued by the Credit Union,
and includes any device or check used to obtain credit or cash from the account.
“Account” refers to your VISA Platinum Preferred, VISA Platinum Preferred with Rewards, VISA
Student Advantage, or VISA Secured Credit Card account, unless otherwise stated.

NOTE: If this is a joint account, read the singular pronouns in plural.
2. USE OF CARD. You may use your account to purchase goods or services or get cash advances, up to the
credit limit. We may allow you to transfer balances from other credit cards. We also may issue
convenience checks to you from time to time. When you sign a convenience check, you request a cash
advance from your account. We may refuse to pay a convenience check for any reason. At your risk and
upon your request, we will accept a stop payment request on a convenience check. You must provide us
with any information we may require. A stop payment request becomes effective only after we have had
a reasonable opportunity to act upon it. Our receipt of your stop payment request comes too late if: we
have indicated in any manner that we will pay or honor the convenience check; the convenience check is
already in our processing system; or we do not have a reasonable time to act upon it (and you and we
agree that the receipt of your stop payment request on the same day as the convenience check
is presented to us does not give us a reasonable time to act on the stop payment request). Stop payment
requests may be made orally or in writing. An oral stop payment request is effective for 14 calendar days
following our receipt unless confirmed by you in writing before the end of that time period. A written
stop payment request is effective for 6 months following our receipt and must be renewed in writing. If
you fail to renew a stop payment request before it expires, you will be deemed to have consented to
payment of the convenience check. You will immediately sign the back of your card upon receipt to
ensure proper use. You promise to pay the Credit Union all amounts charged to your account by you or
by any user who has access to your account, with actual, apparent, or implied authority for its use,
including finance charges and other fees or charges described in this Agreement. By signing, using, or
permitting others to use the card, you agree to the terms and conditions contained in this Agreement, on
the card, on any charge slip resulting from authorized use of the card, and on any authorized Cash
Advance slip. You also agree to make a good-faith effort to resolve any billing dispute. You may not use

your card to initiate any type of electronic gambling transaction through the Internet. Also, you agree
that you will not use your card for any transaction that is illegal under applicable federal, state, or local
law.
3. JOINT ACCOUNTS. Each cardholder is responsible, jointly and severally, for the repayment of any
amounts owed. You understand that the Credit Union will mail any VISA card which is requested and
approved only to the primary borrower at the address indicated on the account. We may refuse to follow
any instructions which run counter to this provision.
4. OWNERSHIP. Your card remains the property of the Credit Union, which reserves the right to cancel
your card at any time without notice. You agree to discontinue using your card immediately and return it
to us or our agent designated to repossess it upon our request or revocation. If we employ an agent for
such repossession, your account will be charged with any related fee.
5. PERSONAL IDENTIFICATION NUMBER. The Credit Union will issue a Personal Identification Number
(PIN) for use with your VISA card. This PIN is confidential. Do not disclose it to anyone. You may use your
PIN and your VISA card to access your account. All sums advanced will be added to your account balance.
If any use of your PIN constitutes an Electronic Funds Transfer, the terms and conditions of your Electronic
Funds Transfer Agreement will govern such transactions to the extent that your Electronic Funds
Transfer Agreement expands or amends this Agreement.
6. LINE OF CREDIT LIMIT. If your application for a VISA card is approved, you will be notified of your credit
limit (the maximum amount of credit we agree to provide to you or on your behalf) for transactions made
under your account. Unless you are in default, the credit limit established for you will be self- replenishing
as you make payment of your account. You agree to keep your unpaid balance within the credit limit set
by us, and you promise to pay any amount over the credit limit upon our demand, whether or not we
authorize the advance which caused you to exceed your credit limit. We are not obligated to accept
charges which would cause you to exceed your credit limit. If your account is in default, you will have no
credit available even if your unpaid balance is less than your credit limit. You agree that we can change
your credit limit at any time. You may request a change to your credit limit by submitting an updated VISA
application to us.
7. PERIODIC STATEMENT. On a regular basis, you will receive a statement showing all transactions on your
account, including amounts paid and borrowed since your last statement. You are responsible for
making payments on your VISA account whether you receive a billing statement or not. See section 9.(E)
of this Agreement.
You will receive one statement for all cards issued with your account number. If more than one person is
an authorized user, the statement will be sent to the first person listed on the account. We need not
send you a statement if we feel your account is uncollectible or if we have started collection proceedings
against you because you defaulted. Unless you establish a billing error according to the Federal Truth-lnLending Act, each statement is deemed to be correct. Your monthly statement will identify the
merchant, electronic terminal or financial institution at which the transactions were made. Because
sales, cash advances, credit or other slips cannot be returned with the statement, you should retain the
copy of the slips furnished at the time of the transaction so that you can verify your monthly statement.

8. FINANCE CHARGES. FINANCE CHARGES WILL BE IN AMOUNTS NOT IN EXCESS OF THOSE PERMITTED BY
LAW. FINANCE CHARGES AND OTHER CHARGES THAT APPLY TO YOUR ACCOUNT ARE DISCLOSED IN THE
FEDERAL TRUTH-IN-LENDING STATEMENT GIVEN TO YOU SEPARATELY.
9. MINIMUM MONTHLY PAYMENT.
(A.) Except for Visa Secured, your Minimum Payment each month will be either (1) 2% of your new
balance on your billing statement or $10 (whichever is greater); or (2) your new balance on your
billing statement, if it is less than $10; plus (3) any portion of the minimum payment(s) shown on
the prior statement(s) which remains unpaid, and finance and other applicable charges.
(B.) Visa Secured Minimum Payment each month will be either (1) 3% of your new balance on your
billing statement or $10 (whichever is greater); or (2) your new balance, if it is less than $10; plus (3) any
portion of the minimum payment(s) shown on the prior statement(s) which remains unpaid, and finance
and other applicable charges.
(C.) Though you need only pay the Minimum Payment each month, you may make larger payments or
pay your entire account balance at any time without penalty. You will only be charged periodic interest
to the date you pay your entire account balance. Any partial payment or prepayment of your account
will not delay your next scheduled payment. All payments must be in lawful money of the United States
and drawn on a U.S. institution.
Subject to the requirements of applicable law, (a) we may select the method by which payments and
credits are allocated to your account in our sole discretion, and (b) if you pay more than the Minimum
Monthly Payment required, we will apply the excess amount to the balance with the highest Annual
Percentage Rate and then to other balances in descending order based on Annual Percentage Rates. If
your credits and/or payments exceed what you owe, we will hold and apply these against future
purchases and cash advances. We will refund the credits or payments to you if you send us a written
request and will refund any part of the credit balance remaining in your account after 6 months.
(D.) VISA Secured Minimum Payments may be made through payroll deductions or other periodic
deposits. Otherwise they must be mailed to the address shown on your statement to avoid delays in
crediting your account. VISA Platinum Preferred, Platinum Preferred with Rewards and Student
Advantage payments must be mailed to the address shown on your statement to avoid delays in
crediting your account. DO NOT MAIL PAYMENTS DIRECTLY TO THE CREDIT UNION. DO NOT COMMINGLE
YOUR CREDIT CARD PAYMENTS WITH FUNDS DESIGNATED FOR CREDIT TO OTHER ACCOUNTS. Payment
checks must be drawn on a financial institution or other entity domiciled in the United States. Although
we post your payments in the manner described above, we
may delay restoring your available credit limit in the amount of your payment. All credits for payments
to your account are subject to final payment by the institution on which the item of payment was
drawn.

(E.) At our option, we may provide for a payment skip option, which means that you may be allowed to
skip making the Minimum Payment, for specified billing cycles. If you accept this payment skip option, we
will continue to apply the interest as disclosed in the Federal Truth-in Lending Statement, but no late
payment charges will apply to the skipped payment. For the billing cycle following a skipped payment,
all the terms and conditions of this Agreement (including the Minimum Payment and applicable late
charges) will continue to apply.
(F.) The Credit Union is not responsible for billing statements which are late, lost or damaged by the U.S.
Postal Service. If you do not receive a billing statement, you may obtain information about your new
balance, minimum payment and payment due date by calling 800-237-6211.

10. PLEDGE OF SHARES. BY SIGNING THE PLEDGE OF SHARES SECTION OF THE APPLICATION, YOU
PLEDGE AND GRANT TO US A SECURITY INTEREST IN YOUR CREDIT UNION SHARES, INCLUDING
DIVIDENDS WE PAY TO YOU ON THIS ACCOUNT TO SECURE THE ACCOUNT. You acknowledge that you
own any shares pledged. To apply for and maintain any VISA credit card, you must be a Credit Union
member and have a Share Savings Account with us with a $5 minimum balance, in addition to any other
savings requirements that may apply.
If you have a VISA Secured Card, you further agree:
•

To place $250 of cleared funds on deposit as collateral for the card in a Special Share Savings
Account to qualify for a $500 VISA Secured Credit Limit. Credit limits over $500 will require funds
on deposit in a Special Share Savings Account equal to 110% of the entire limit requested.

•

To make weekly and/or other periodic deposits of $20 (minimum) through payroll deductions to
that special Share Savings Account until that account reaches $550 or 110% of the credit limit,
and maintain those funds with us as collateral for the account.

•

That you have the option to make weekly and/or other periodic deposits to a designated Share
Savings Account through payroll deduction in amounts equal to the minimum monthly payment
on your line of credit (which may be higher than your actual minimum monthly payment on
purchases or cash advances).

•

That you cannot withdraw any funds from these deposits except for amounts that exceed your
credit limit plus one monthly payment. You cannot withdraw any funds from these deposits while
your account balance exceeds your credit limit, if you are in default, or if we have blocked use of
or requested the return of your card.

•

The deposits and payments described in this Agreement must be made while your VISA account
is open, while the VISA Secured Card is in your possession (regardless of your account balance),
and after your account is closed, until it is paid in full, this agreement is terminated and your
card is returned to us.

11. MERCHANT CREDITS. A merchant gives you credit for returns or adjustments by sending us a credit slip
which is then posted to your account. You need to allow up to 30 days from the date we receive the credit
slip for the credit to appear on your statement. If it has not been posted to your account by then, refer to
the Billing Rights summary below. Include a COPY of the credit slip with any correspondence.
12. DEFAULT. You will be in default if any one of the following apply:
•

You do not make a payment within 30 days after its due date or perform any obligation under
this Agreement, or any other Agreement you may have with us.

•

You exceed your credit limit.

•

You die or become involved in an insolvency, receivership or custodial proceeding brought by or
against you.

•

You have made a false or misleading statement in a credit application with us and/or in your
representations to us while you owe us money.

•

A judgment or tax lien is filed against you or any attachment or garnishment is issued against
any of your property or rights, specifically including anyone starting an action or proceeding to
seize any of your funds on deposit with us.

•

We, in good faith, believe your ability to repay your indebtedness hereunder is or soon will be
impaired, time being of the very essence.

•

Any default occurs and is not cured to our satisfaction under any other loan or other
indebtedness you have with us.

IF YOU ARE IN DEFAULT, WE MAY IMMEDIATELY, WITHOUT NOTICE OR DEMAND AND TO THE EXTENT
PERMITTED BY LAW, (1) CANCEL YOUR RIGHTS UNDER THIS AGREEMENT, INCLUDING ALL USE OF THE
CARD(S), (2) DECLARE THE ENTIRE UNPAID BALANCE OF YOUR ACCOUNT IMMEDIATELY DUE AND
PAYABLE, AND (3) REQUIRE THE RETURN OF ALL CARDS.

13. ENFORCEMENT. We do not lose our rights under this Agreement if we delay enforcing them or if we
accept late payments, partial payments, or any other payments, even if they are marked “paid in full.” If
any provision of this or any related Agreement is determined to be unenforceable or invalid, all other
provisions continue to remain in full force and effect.
14. ASSISTANCE IN PROSECUTION. You agree to assist us (for example, by furnishing affidavits and/or
giving testimony) in the prosecution of any person(s) for unauthorized use of your card.
15. NOTICES: Notice sent to any one of you will be considered notice to all. Any notices we give you shall
be in writing and deemed given when deposited in the U.S. mail, with postage prepaid and addressed to
you at your last known address in our records for your account or when sent by e-mail (if you use our
internet banking services) to your last known internet address. Your notices to us must be in writing and
sent to the address shown in your most recent billing statement or as otherwise specified in this
Agreement. If a specific notice period or type of notice is required by applicable law, the notice will be
made and will be binding in accordance with such law.

16. CHANGE IN TERMS. To the extent permitted by law: we may change the terms of this Agreement at
any time by notifying you of the changes as prescribed by the Federal Truth-ln-Lending Act, the right to
change the terms of this Agreement includes the right to change the periodic rate of interest applicable
to your unpaid balance and/or future advances and changes may apply to all outstanding indebtedness
on the effective date of the change.
17. REFUSAL TO HONOR CARD(S). The Credit Union is not liable for the refusal or inability of merchants,
financial institutions or others to accept the card, or for the refusal or inability of electronic terminals to
honor the card or complete a card withdrawal or for their retention of the card.
18. LIABILITY FOR CARDHOLDER NEGLIGENCE OR UNAUTHORIZED USE AND REPORTING LOST OR
STOLEN CARDS. BY accepting a VISA card, you agree to accept responsibility for safeguarding your card
and the PIN issued to you or any other authorized user in order to prevent unauthorized transactions.
You agree that we may invalidate your card and PIN if unauthorized transactions occur as an apparent
result of your negligence. You will not be liable for unauthorized transactions on a lost or stolen card
after you notify “security.” YOU MUST REPORT A LOST OR STOLEN CARD IMMEDIATELY. Notify “security”
by calling 800-237-6211 IMMEDIATELY or by writing to Fidelity National Information System on behalf of
Marriott Employees’ FCU, PO Box 30495 Tampa FL, 33630. You agree to tell us what you know about the
loss or theft. We reserve the right to impose liability on you if we determine that you were negligent in
the handling of the account or card. In any case, your liability will not exceed $50. If you give us notice
orally, you agree to confirm it in writing. You agree that unauthorized use does not include use by a
person to whom you have given authority to use the account or card and that you will be liable for all use
by such a person. To terminate that authority, you must notify us.
19. EFFECT OF AGREEMENT. This agreement is the ONLY contract which applies to all transactions
involving the card and overrides any sales, cash advance, credit, or other slips you may sign or receive
when using the card.
20. INTEGRATED DOCUMENT(S). Any separate sheet of paper labeled “Additional Disclosure Federal
Truth- In-Lending Act“ that is delivered to you and relates to this Agreement is an integrated part of this
Agreement and Disclosure.
21. PAYABLE ON DEMAND. The entire principal balance of your account plus interest will become
immediately due and payable, at our option, under any of the following conditions:
•
•
•

You leave your employment with Marriott International, Inc. or any affiliate or subsidiary.
You fail to return a signed Agreement.
You are in default as defined in this Agreement.

If you are employed by Marriott International, Inc. or any affiliate or subsidiary and you leave that
employment, and to the extent permitted by law, you authorize that company to release to us, and
direct us to apply any final payments due you from that company to the balance owed to us, plus any
charges outstanding on your account, if we so request.

22. UPDATING AND DISCLOSING FINANCIAL INFORMATION. You agree to advise us of any change in your
financial condition which may affect your creditworthiness and provide us with a current account
application whenever we request one. At our request, you agree to provide facts to update information
contained in your original account application or other financial information related to you, including
information related to your default. You also agree that we may make inquiries pertaining to your
employment, credit standing and financial responsibility in accordance with applicable laws and
regulations as we deem necessary. You further agree that we may give information about the status and
payment history of your account to consumer credit reporting agencies. By applying for or using the card,
you agree that we may provide your personal data to VISA U.S.A., its members or their agents for the
purpose of providing emergency cash and emergency credit card replacement services.
23. TERMINATION. Either we or you may terminate this Agreement and your account at any time by
giving the other party notice, but termination will not affect your obligations to pay the account balance
plus any interest and other charges owed according to the terms of this Agreement. You must return all
cards to us with your notice of termination. Termination by any one of you terminates the card for all of
you. Termination by you is effective upon our acknowledgement that your notice has been received. The
cards you receive remain our property and you must recover and surrender all cards to us upon request
or upon termination of this Agreement. Termination of this account will also terminate any other
products or services offered in conjunction with this account.
24. OTHER AGREEMENTS. You agree that we do not waive our rights under this Agreement if we fail to
assert them. The Agreement binds and benefits us and our successors and assigns and binds you, your
estate and your personal representatives.
25. ASSIGNABILITY OF ACCOUNT. You agree the Credit Union may at any time sell, transfer, or assign
your
VISA account to another financial institution.
26. COMMUNICATIONS CONCERNING DISPUTED DEBTS: IF YOU MAKE A PAYMENT MARKED “PAID IN
FULL” OR STATE THAT YOUR CHECK PAYS YOUR OUTSTANDING BALANCE OR IS OTHERWISE IN FULL
SATISFACTION OF THIS AGREEMENT YOU MUST SEND THAT PAYMENT TO VISA P.O. BOX 31279 TAMPA,
FL 33631-3279.
27. RATE STATEMENT OF MILITARY ANNUAL PERCENTAGE (MAPR):
Federal law provides important protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold in connection with the credit transaction;
any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card
account). To hear this same disclosure and a general description of your payment obligations for this
credit card account, please call us toll-free at: 1-844-833-1907. During any period in which the
Military Lending Act (“the Act”) applies to you, no provision of your Cardholder Agreement that is
inconsistent with the Act shall apply and your Cardholder Agreement shall be interpreted to comply
with the Act

28. TELEPHONE MONITORING: To ensure that you received accurate and courteous customer service, on
occasion, your call may be monitored by our employees or agents and you agree to any such monitoring.
29. MISCELLANEOUS: This Agreement is governed by the laws of the State of Maryland except to the
extent federal laws preempt Maryland law. We elect to extend credit under Subtitle 9 of Title 12 of the
Commercial Law Article of the Annotated Code of Maryland, except to the extent it is preempted by
federal law. We can delay enforcing any of our rights any number of times without losing them.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on you statement, write us at: Fidelity National Information System on
behalf of
MARRIOTT EMPLOYEES’ FEDERAL CREDIT UNION
PO Box 30495
Tampa FL, 33630
In your letter, give us the following information:
•

Account Information: Your name and account number. Dollar Amount: The dollar amount of
the suspected error. Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required
to investigate any potential errors and you may have to pay the amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain why we believe the
bill was correct. While we investigate whether or not there has been error:
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you
interest on that amount. While you do not have to pay the amount in question, you are
responsible for the remainder of your balance. We can apply any unpaid amount against your
credit limit.

•

After we finish our investigation, one of two things will happen:

•

If we made a mistake: You will not have to pay the amount in question or any interest or other
fees related to that amount.

•

If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think
you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your Credit Card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home State or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your Credit Card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your Credit Card account do not qualify.
3. You must not yet have fully paid for the purchase. If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at:
Fidelity National Information System on behalf of
MARRIOTT EMPLOYEES’ FEDERAL CREDIT UNION
PO Box 30495
Tampa FL, 33630
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do
not pay, we may report you as delinquent.

NOTICE TO OHIO RESIDENTS. Ohio laws against discrimination require that all creditors make credit
equally available to all creditworthy customers and that credit reporting agencies maintain separate
credit histories on each individual upon request. The Ohio Civil Rights Commission administers
compliance with this law.
NOTICE TO MASSACHUSETTS RESIDENTS. You may cancel a purchase under this Agreement if it has been
signed by a party thereto at a place other than the address of the seller, which may be his/her main office
or branch thereof, provided that you notify the seller in writing at his/her main office by first-class mail
posted or by a telegram sent or delivered by no later than midnight of the third business day following a
purchase under this Agreement.
NOTICE TO TEXAS RESIDENTS. This contract is subject in whole or in part to Texas law, which is enforced
by the Consumer Credit Commissioner, 2601 North Lamar Boulevard, Austin, Texas, 78705-4207. Phone
number: 512-479-1285, 214-263-2016, 713-461-4074.
NOTICE TO ILLINOIS RESIDENTS. For comparative information on interest rates, charges, fees and grace
periods, residents of Illinois may contact the Illinois Commissioner of Banks and Trust Companies, State
of Illinois – CIP, P.O. Box 10181, Springfield, Illinois, 62791. Phone number: 800-634-5452.

NOTICE TO COSIGNER: You are being asked to guarantee this debt. Think
carefully before you do. If the borrower does not pay the debt, you will
have to. Be sure you can afford to pay if you have to, and that you want to
accept this responsibility. You may have to pay up to the full amount of
the debt if the borrower does not pay. You may also have to pay late fees
or collection costs, which increase this amount. The Credit Union can
collect this debt from you without first trying to collect from the
borrower. The Credit Union can use the same collection methods against
you that can be used against the borrower, such as suing you, garnishing
your wages, etc. If this debt is ever in default, that fact may become a
part of your credit record. This notice is not the contract that makes you
liable for the debt.
Address all correspondence to:
Fidelity National Information Systems (FIS)
PO Box 30495
Tampa FL, 33630
This agreement is effective as of May 15, 2018 and supersedes any prior VISA disclosures.

MARRIOTT EMPLOYEES’ FEDERAL CREDIT UNION
ADDITIONAL DISCLOSURE – FEDERAL TRUTH-IN LENDING ACT
VISA CREDIT CARD
The following disclosure is required by law and is part of your VISA Credit Card Agreement with Marriott
Employees’ Federal Credit Union. “You” means each person jointly and individually who applies for or
otherwise is responsible for the VISA Platinum Preferred, VISA Platinum Preferred with Rewards, VISA
Student Advantage, or VISA Secured Credit
Card issued by Marriott Employees’ Federal Credit Union (your “card”.) “We” and “Credit Union” refers
to Marriott Employees’ Federal Credit Union or any of its assigns. “Account” means your VISA card
account.
Interest Rates and Interest Charges
Annual Fee Platinum Preferred: None
Annual Percentage Rate (APR) for Purchases, Balance Transfers and Cash Advances Platinum Preferred:
9.90% to 17.90%*
* The APR is based on your creditworthiness when you open your account.
Paying Interest Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at: http://www.consumerfinance.gov/learnmore
Fees:
Transaction Fees
• Foreign Transactions - 1% of each foreign transaction in U.S. dollars
• Cash Advance - 3% of the amount of each cash advance
• Balance Transfer - 3% of the amount of each balance transfer
• Convenience Check - 3% of the amount of each convenience check

Penalty Fees
• Late Payment - Up to $35
• Returned Payment - Up to $35
• Returned Convenience Check - Up to $35
How We Will Calculate Your Balance: We use a method called “average daily balance (including new
transactions).” See below for more details.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your account agreement.
Interest: We will charge and you agree to pay interest calculated by multiplying the monthly average
daily balances for purchases and cash advances for your account by the monthly periodic rate. Interest is
calculated by multiplying the monthly average daily balances for purchases and cash advances for your
account by the monthly periodic rate. Balance transfers are considered cash advances. The monthly
periodic rate for the Platinum Credit Card would be from 0.8250% and 1.49170 (corresponding ANNUAL
PERCENTAGE RATE would be from 9.90% to 17.90%).
How the Average Daily Balance is determined: The average daily balances for purchases and cash
advances, including balance transfers, are determined separately. Balance transfers are considered cash
advances. To get the average daily balances for purchases and cash advances, we start with the separate
balances of purchases and cash advances at the beginning of the billing cycle and then separately add
any new purchases and new cash advances. We then subtract any payments (as of the date received) or
credits (as of the date of the transaction unless we have subtracted them as of a later date) applicable to
your purchases or cash advance balances. We do the same each day of the billing cycle. We don’t add any
accrued interest or charges and fees, except credit insurance (if applicable.) This gives us the separate
daily balances for purchases and cash advances. Then we add up the separate daily balances
for purchases and cash advances for each day of the billing cycle and divide each total by the number of
days in the billing cycle. This gives us the average daily balances for purchases and cash advances.
Interest Accrual: Interest will begin on each purchase, cash advance and balance transfer on the
transaction date. Interest will be charged until you pay off the balance. For convenience checks, the
transaction date is the date the check is presented to us for payment. You will pay interest on each cash
advance from the date you get the cash advance and on each balance transfer from the date it is posted
to your account. There is no grace period on cash advances or balance transfers.
Grace Period for Purchases: You can avoid interest charges on new purchases when they are first billed
on a monthly statement, as described below, but not on cash advances or balance transfers. If a
monthly statement includes new purchases, and you make a payment that we receive by the due date
for that statement, which is at least 25 days after the close of the billing cycle, we will not charge
interest on any portion of the new purchases on that statement to which we allocate such payment,
provided that your current statement also shows that we received payment of the New Balance for your
prior month’s statement by the payment due date on that statement or that the New Balance for your
prior month’s statement was zero.

Foreign Transactions: Purchases and cash advances made in foreign countries and foreign currencies will
be billed to you in U.S. dollars. The exchange rate for transactions in a foreign currency will be a rate
selected by Visa from the range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate Visa itself receives, or the government
mandated rate in effect for the applicable central processing date, in either case, plus 1% of the amount
of the foreign currency purchase or cash advance after its conversion into U.S. dollars. The exchange
rate in effect on the central processing date may differ from the rate in effect on either the transaction
date or the posting date. The exchange rate is subject to change by Visa. These foreign transaction fees
are finance charges.
Annual Membership Fee: If your account has an annual fee, we will bill it to the account each year in the
anniversary month that your account is opened whether or not you use your account, and you agree to
pay it when billed. We will give you at least 30 days prior notice before we bill the annual fee. The
annual fee is non-refundable unless you notify us that you wish to close your account within 30 days
after we provide you the statement on which the annual fee is billed. Even though you pay the annual
fee, we may close your account and or limit your right to make transactions on your account.
Cash Advance and Balance Transfer Fees. We will charge you transaction fees for balance transfers and
cash advances, and you agree to pay them when billed. These fees are finance charges.
Late Fees and Other Charges: We will charge and you agree to pay the Late Payment Fee if any
Minimum Payment is received by us more than 10 days after the due date on your monthly statement.
The Returned Payment fee is charged if any item (check or electronic payment) presented for payment
is dishonored for any reason. The Returned Convenience Check fee is charged if any convenience check
(check or electronic payment) presented for payment is dishonored for any reason.
Credit Insurance: If you elected voluntary credit insurance when you applied for your Card, you
understand that rates are not guaranteed. However, if rates increase, you will be notified in advance. For
coverage to be effective you must have checked the “YES” box and signed or initialed the Payment
Protection Option when you applied for the VISA account. Credit insurance premiums will be charged to
your account as a purchase. The Monthly Premium per $1,000.00 of outstanding balance is:
Single Credit Life $0.26
Joint Credit Life $0.47
Single Credit Disability $0.32

Other Fees: We may charge fees for certain services that you request, for example, if you request a copy
of a monthly statement, or for special services. We will not charge fees for copies of documents
requested for a billing dispute. Service fees may change from time to time. We will disclose these fees to
you when you request the service.
Collection Costs: You agree to pay the reasonable attorney’s fees, court costs and/or collection agency
fees and costs we incur as a result of your default, to the extent allowed by law. Any collection costs we
incur will be added to your account as a purchase.

Security Interest. Your account is secured by all individual and joint share accounts you have with us
now and in the future. Collateral securing other loans you have with us may also secure this account,
except that your home, investment securities and household goods will never secure this account.

MARRIOTT EMPLOYEES’ FEDERAL CREDIT UNION
ADDITIONAL DISCLOSURE – FEDERAL TRUTH-IN LENDING ACT
VISA CREDIT CARD
The following disclosure is required by law and is part of your VISA Credit Card Agreement with Marriott
Employees’ Federal Credit Union. “You” means each person jointly and individually who applies for or
otherwise is responsible for the VISA Platinum Preferred, VISA Platinum Preferred with Rewards, VISA
Student Advantage, or VISA Secured Credit Card issued by Marriott Employees’ Federal Credit Union
(your “card”.) “We” and “Credit Union” refers to Marriott Employees’ Federal Credit Union or any of its
assigns. “Account” means your VISA card account.
Interest Rates and Interest Charges
Annual Fee Platinum Preferred with Rewards: None
Annual Percentage Rate (APR) for Purchases, Balance Transfers and Cash Advances Platinum Preferred
with Rewards: 11.80% to 17.90*
* The APR is based on your creditworthiness when you open your account.
Paying Interest Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at: http://www.consumerfinance.gov/learnmore
Fees:
Transaction Fees
• Foreign Transactions - 1% of each foreign transaction in U.S. dollars
• Cash Advance - 3% of the amount of each cash advance
• Balance Transfer - 3% of the amount of each balance transfer
• Convenience Check - 3% of the amount of each convenience check
Penalty Fees
• Late Payment - Up to $35
• Returned Payment - Up to $35
• Returned Convenience Check - Up to $35
How We Will Calculate Your Balance: We use a method called “average daily balance (including new
transactions).” See below for more details.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your account agreement.
Interest: We will charge and you agree to pay interest calculated by multiplying the monthly average
daily balances for purchases and cash advances for your account by the monthly periodic rate. Interest is
calculated by multiplying the monthly average daily balances for purchases and cash advances for your
account by the monthly periodic rate. Balance transfers are considered cash advances. The monthly
periodic rate for the Platinum Preferred with Rewards Credit Card would be from .98330% and 1.49170%
(corresponding ANNUAL PERCENTAGE RATE would be from 11.80% to 17.90).
How the Average Daily Balance is determined: The average daily balances for purchases and cash
advances, including balance transfers, are determined separately. Balance transfers are considered cash
advances. To get the average daily balances for purchases and cash advances, we start with the separate
balances of purchases and cash advances at the beginning of the billing cycle and then separately add
any new purchases and new cash advances. We then subtract any payments (as of the date received) or
credits (as of the date of the transaction unless we have subtracted them as of a later date) applicable to
your purchases or cash advance balances. We do the same each day of the billing cycle. We don’t add
any accrued interest or charges and fees, except credit insurance (if applicable.) This gives us the
separate daily balances for purchases and cash advances. Then we add up the separate daily balances
for purchases and cash advances for each day of the billing cycle and divide each total by the number of
days in the billing cycle. This gives us the average daily balances for purchases and cash advances.
Interest Accrual: Interest will begin on each purchase, cash advance and balance transfer on the
transaction date. Interest will be charged until you pay off the balance. For convenience checks, the
transaction date is the date the check is presented to us for payment. You will pay interest on each cash
advance from the date you get the cash advance and on each balance transfer from the date it is posted
to your account. There is no grace period on cash advances or balance transfers.
Grace Period for Purchases: You can avoid interest charges on new purchases when they are first billed
on a monthly statement, as described below, but not on cash advances or balance transfers. If a
monthly statement includes new purchases, and you make a payment that we receive by the due date
for that statement, which is at least 25 days after the close of the billing cycle, we will not charge
interest on any portion of the new purchases on that statement to which we allocate such payment,
provided that your current statement also shows that we received payment of the New Balance for your
prior month’s statement by the payment due date on that statement or that the New Balance for your
prior month’s statement was zero.
Foreign Transactions: Purchases and cash advances made in foreign countries and foreign currencies will
be billed to you in U.S. dollars. The exchange rate for transactions in a foreign currency will be a rate
selected by Visa from the range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate Visa itself receives, or the government
mandated rate in effect for the applicable central processing date, in either case, plus 1% of the amount
of the foreign currency purchase or cash advance after its conversion into U.S. dollars. The exchange
rate in effect on the central processing date may differ from the rate in effect on either the transaction
date or the posting date. The exchange rate is subject to change by Visa. These foreign transaction fees
are finance charges.

Annual Membership Fee: If your account has an annual fee, we will bill it to the account each year in the
anniversary month that your account is opened whether or not you use your account, and you agree to
pay it when billed. We will give you at least 30 days prior notice before we bill the annual fee. The
annual fee is non-refundable unless you notify us that you wish to close your account within 30 days
after we provide you the statement on which the annual fee is billed. Even though you pay the annual
fee, we may close your account and or limit your right to make transactions on your account.
Cash Advance and Balance Transfer Fees. We will charge you transaction fees for balance transfers and
cash advances, and you agree to pay them when billed. These fees are finance charges.
Late Fees and Other Charges: We will charge and you agree to pay the Late Payment Fee if any
Minimum Payment is received by us more than 10 days after the due date on your monthly statement.
The Returned Payment fee is charged if any item (check or electronic payment) presented for payment
is dishonored for any reason. The Returned Convenience Check fee is charged if any convenience check
(check or electronic payment) presented for payment is dishonored for any reason.
Credit Insurance: If you elected voluntary credit insurance when you applied for your Card, you
understand that rates are not guaranteed. However, if rates increase, you will be notified in advance. For
coverage to be effective you must have checked the “YES” box and signed or initialed the Payment
Protection Option when you applied for the VISA account. Credit insurance premiums will be charged to
your account as a purchase. The Monthly Premium per $1,000.00 of outstanding balance is:
Single Credit Life $0.26
Joint Credit Life $0.47
Single Credit Disability $0.32
Other Fees: We may charge fees for certain services that you request, for example, if you request a copy
of a monthly statement, or for special services. We will not charge fees for copies of documents
requested for a billing dispute. Service fees may change from time to time. We will disclose these fees to
you when you request the service.
Collection Costs: You agree to pay the reasonable attorney’s fees, court costs and/or collection agency
fees and costs we incur as a result of your default, to the extent allowed by law. Any collection costs we
incur will be added to your account as a purchase.
Security Interest. Your account is secured by all individual and joint share accounts you have with us
now and in the future. Collateral securing other loans you have with us may also secure this account,
except that your home, investment securities and household goods will never secure this account.

MARRIOTT EMPLOYEES’ FEDERAL CREDIT UNION
ADDITIONAL DISCLOSURE – FEDERAL TRUTH-IN LENDING ACT
VISA CREDIT CARD
The following disclosure is required by law and is part of your VISA Credit Card Agreement with Marriott
Employees’ Federal Credit Union. “You” means each person jointly and individually who applies for or
otherwise is responsible for the VISA Platinum Preferred, VISA Platinum Preferred with Rewards, VISA
Student Advantage, or VISA Secured Credit Card issued by Marriott Employees’ Federal Credit Union
(your “card”.) “We” and “Credit Union” refers to Marriott Employees’ Federal Credit Union or any of its
assigns. “Account” means your VISA card account.
Interest Rates and Interest Charges
Annual Fee Student Advantage: None
Annual Percentage Rate (APR) for Purchases, Balance Transfers and Cash Advances Student Advantage:
15.80%
Paying Interest Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at: http://www.consumerfinance.gov/learnmore
Fees:
Transaction Fees
• Foreign Transactions - 1% of each foreign transaction in U.S. dollars
• Cash Advance - 3% of the amount of each cash advance
• Balance Transfer - 3% of the amount of each balance transfer
• Convenience Check - 3% of the amount of each convenience check
Penalty Fees
• Late Payment - Up to $35
• Returned Payment - Up to $35
• Returned Convenience Check - Up to $35
How We Will Calculate Your Balance: We use a method called “average daily balance (including new
transactions).” See below for more details.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your account agreement.
Interest: We will charge and you agree to pay interest calculated by multiplying the monthly average
daily balances for purchases and cash advances for your account by the monthly periodic rate. Interest is
calculated by multiplying the monthly average daily balances for purchases and cash advances for your
account by the monthly periodic rate. Balance transfers are considered cash advances. The monthly
periodic rate for the Student Advantage Credit Card is 1.3167% (corresponding ANNUAL PERCENTAGE
RATE 15.80%).
How the Average Daily Balance is determined: The average daily balances for purchases and cash
advances, including balance transfers, are determined separately. Balance transfers are considered cash
advances. To get the average daily balances for purchases and cash advances, we start with the separate
balances of purchases and cash advances at the beginning of the billing cycle and then separately add
any new purchases and new cash advances. We then subtract any payments (as of the date received) or
credits (as of the date of the transaction unless we have subtracted them as of a later date) applicable to
your purchases or cash advance balances. We do the same each day of the billing cycle. We don’t add
any accrued interest or charges and fees, except credit insurance (if applicable.) This gives us the
separate daily balances for purchases and cash advances. Then we add up the separate daily balances
for purchases and cash advances for each day of the billing cycle and divide each total by the number of
days in the billing cycle. This gives us the average daily balances for purchases and cash advances.
Interest Accrual: Interest will begin on each purchase, cash advance and balance transfer on the
transaction date. Interest will be charged until you pay off the balance. For convenience checks, the
transaction date is the date the check is presented to us for payment. You will pay interest on each cash
advance from the date you get the cash advance and on each balance transfer from the date it is posted
to your account. There is no grace period on cash advances or balance transfers.
Grace Period for Purchases: You can avoid interest charges on new purchases when they are first billed
on a monthly statement, as described below, but not on cash advances or balance transfers. If a
monthly statement includes new purchases, and you make a payment that we receive by the due date
for that statement, which is at least 25 days after the close of the billing cycle, we will not charge
interest on any portion of the new purchases on that statement to which we allocate such payment,
provided that your current statement also shows that we received payment of the New Balance for your
prior month’s statement by the payment due date on that statement or that the New Balance for your
prior month’s statement was zero.
Foreign Transactions: Purchases and cash advances made in foreign countries and foreign currencies will
be billed to you in U.S. dollars. The exchange rate for transactions in a foreign currency will be a rate
selected by Visa from the range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate Visa itself receives, or the government
mandated rate in effect for the applicable central processing date, in either case, plus 1% of the amount
of the foreign currency purchase or cash advance after its conversion into U.S. dollars. The exchange
rate in effect on the central processing date may differ from the rate in effect on either the transaction
date or the posting date. The exchange rate is subject to change by Visa. These foreign transaction fees
are finance charges.

Annual Membership Fee: If your account has an annual fee, we will bill it to the account each year in the
anniversary month that your account is opened whether or not you use your account, and you agree to
pay it when billed. We will give you at least 30 days prior notice before we bill the annual fee. The
annual fee is non-refundable unless you notify us that you wish to close your account within 30 days
after we provide you the statement on which the annual fee is billed. Even though you pay the annual
fee, we may close your account and or limit your right to make transactions on your account.
Cash Advance and Balance Transfer Fees. We will charge you transaction fees for balance transfers and
cash advances, and you agree to pay them when billed. These fees are finance charges.
Late Fees and Other Charges: We will charge and you agree to pay the Late Payment Fee if any
Minimum Payment is received by us more than 10 days after the due date on your monthly statement.
The Returned Payment fee is charged if any item (check or electronic payment) presented for payment
is dishonored for any reason. The Returned Convenience Check fee is charged if any convenience check
(check or electronic payment) presented for payment is dishonored for any reason.
Credit Insurance: If you elected voluntary credit insurance when you applied for your Card, you
understand that rates are not guaranteed. However, if rates increase, you will be notified in advance.
For coverage to be effective you must have checked the “YES” box and signed or initialed the Payment
Protection Option when you applied for the VISA account. Credit insurance premiums will be charged to
your account as a purchase. The Monthly Premium per $1,000.00 of outstanding balance is:
Single Credit Life $0.26
Joint Credit Life $0.47
Single Credit Disability $0.32
Other Fees: We may charge fees for certain services that you request, for example, if you request a copy
of a monthly statement, or for special services. We will not charge fees for copies of documents
requested for a billing dispute. Service fees may change from time to time. We will disclose these fees to
you when you request the service.
Collection Costs: You agree to pay the reasonable attorney’s fees, court costs and/or collection agency
fees and costs we incur as a result of your default, to the extent allowed by law. Any collection costs we
incur will be added to your account as a purchase.
Security Interest. Your account is secured by all individual and joint share accounts you have with us
now and in the future. Collateral securing other loans you have with us may also secure this account,
except that your home, investment securities and household goods will never secure this account.

MARRIOTT EMPLOYEES’ FEDERAL CREDIT UNION
ADDITIONAL DISCLOSURE – FEDERAL TRUTH-IN LENDING ACT
VISA CREDIT CARD
The following disclosure is required by law and is part of your VISA Credit Card Agreement with Marriott
Employees’ Federal Credit Union. “You” means each person jointly and individually who applies for or
otherwise is responsible for the VISA Platinum Preferred, VISA Platinum Preferred with Rewards, VISA
Student Advantage, or VISA Secured Credit Card issued by Marriott Employees’ Federal Credit Union
(your “card”.) “We” and “Credit Union” refers to Marriott Employees’ Federal Credit Union or any of its
assigns. “Account” means your VISA card account.
Interest Rates and Interest Charges
Annual Fee VISA Secured: $25
Annual Percentage Rate (APR) for Purchases, Balance Transfers and Cash Advances for VISA Secured:
17.50%
Paying Interest Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at: http://www.consumerfinance.gov/learnmore
Fees:
Transaction Fees
• Foreign Transactions - 1% of each foreign transaction in U.S. dollars
• Cash Advance - 3% of the amount of each cash advance
• Balance Transfer - 3% of the amount of each balance transfer
• Convenience Check - 3% of the amount of each convenience check
Penalty Fees
• Late Payment - Up to $35
• Returned Payment - Up to $35
• Returned Convenience Check - Up to $35
How We Will Calculate Your Balance: We use a method called “average daily balance (including new
transactions).” See below for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your account agreement.

Interest: We will charge and you agree to pay interest calculated by multiplying the monthly average
daily balances for purchases and cash advances for your account by the monthly periodic rate. Interest is
calculated by multiplying the monthly average daily balances for purchases and cash advances for your
account by the monthly periodic rate. Balance transfers are considered cash advances. The monthly
periodic rate for the VISA Secured Credit Card is 1.4583% (corresponding ANNUAL PERCENTAGE RATE
17.50%).
How the Average Daily Balance is determined: The average daily balances for purchases and cash
advances, including balance transfers, are determined separately. Balance transfers are considered cash
advances. To get the average daily balances for purchases and cash advances, we start with the separate
balances of purchases and cash advances at the beginning of the billing cycle and then separately add any
new purchases and new cash advances. We then subtract any payments (as of the date received) or
credits (as of the date of the transaction unless we have subtracted them as of a later date) applicable to
your purchases or cash advance balances. We do the same each day of the billing cycle. We don’t add any
accrued interest or charges and fees, except credit insurance (if applicable.) This gives us the separate
daily balances for purchases and cash advances. Then we add up the separate daily balances
for purchases and cash advances for each day of the billing cycle and divide each total by the number of
days in the billing cycle. This gives us the average daily balances for purchases and cash advances.
Interest Accrual: Interest will begin on each purchase, cash advance and balance transfer on the
transaction date. Interest will be charged until you pay off the balance. For convenience checks, the
transaction date is the date the check is presented to us for payment. You will pay interest on each cash
advance from the date you get the cash advance and on each balance transfer from the date it is posted
to your account. There is no grace period on cash advances or balance transfers.
Grace Period for Purchases: You can avoid interest charges on new purchases when they are first billed
on a monthly statement, as described below, but not on cash advances or balance transfers. If a
monthly statement includes new purchases, and you make a payment that we receive by the due date
for that statement, which is at least 25 days after the close of the billing cycle, we will not charge
interest on any portion of the new purchases on that statement to which we allocate such payment,
provided that your current statement also shows that we received payment of the New Balance for your
prior month’s statement by the payment due date on that statement or that the New Balance for your
prior month’s statement was zero.
Foreign Transactions: Purchases and cash advances made in foreign countries and foreign currencies will
be billed to you in U.S. dollars. The exchange rate for transactions in a foreign currency will be a rate
selected by MasterCard from the range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate MasterCard itself receives, or the government
mandated rate in effect for the applicable central processing date, in either case, plus 1% of the amount
of the foreign currency purchase or cash advance after its conversion into U.S. dollars. The exchange rate
in effect on the central processing date may differ from the rate in effect on either the transaction date or
the posting date. The exchange rate is subject to change by MasterCard. These foreign transaction fees
are finance charges.

Annual Membership Fee: If your account has an annual fee, we will bill it to the account each year in the
anniversary month that your account is opened whether or not you use your account, and you agree to
pay it when billed. We will give you at least 30 days prior notice before we bill the annual fee. The
annual fee is non-refundable unless you notify us that you wish to close your account within 30 days
after we provide you the statement on which the annual fee is billed. Even though you pay the annual
fee, we may close your account and or limit your right to make transactions on your account.
Cash Advance and Balance Transfer Fees. We will charge you transaction fees for balance transfers and
cash advances, and you agree to pay them when billed. These fees are finance charges.
Late Fees and Other Charges: We will charge and you agree to pay the Late Payment Fee if any
Minimum Payment is received by us more than 10 days after the due date on your monthly statement.
The Returned Payment fee is charged if any item (check or electronic payment) presented for payment
is dishonored for any reason.
Credit Insurance: If you elected voluntary credit insurance when you applied for your Card, you
understand that rates are not guaranteed. However, if rates increase, you will be notified in advance.
For coverage to be effective you must have checked the “YES” box and signed or initialed the
Payment Protection Option when you applied for the VISA account. Credit insurance premiums will
be charged to your account as a purchase. The Monthly Premium per $1,000.00 of outstanding
balance is:
Single Credit Life $0.26
Joint Credit Life $0.47
Single Credit Disability $0.32
Other Fees: We may charge fees for certain services that you request, for example, if you
request a copy of a monthly statement, or for special services. We will not charge fees for
copies of documents requested for a billing dispute. Service fees may change from time to
time. We will disclose these fees to you when you request the service.
Collection Costs: You agree to pay the reasonable attorney’s fees, court costs and/or collection agency
fees and costs we incur as a result of your default, to the extent allowed by law. Any collection costs we
incur will be added to your account as a purchase.
Security Interest. Your account is secured by all individual and joint share accounts you
have with us now and in the future. Collateral securing other loans you have with us may
also secure this account, except that your home, investment securities and household
goods will never secure this account.

Revised May 15, 2018

